Office of Inspector General

U.S. Department of Labor
Office of Audit




                CONCERNS PERSIST WITH
                    THE INTEGRITY OF
              DAVIS-BACON ACT PREVAILING
                WAGE DETERMINATIONS




                              Report Number: 04-04-003-04-420
                              Date Issued: March 30, 2004
Concerns Persist With the Integrity of Davis-Bacon Act Prevailing Wage Determinations




                                           TABLE OF CONTENTS
                                                                                                                        Page No.

ACRONYMS..................................................................................................................... i

EXECUTIVE SUMMARY ............................................................................................... 1

BACKGROUND AND PRINCIPAL CRITERIA............................................................. 5

OBJECTIVES, SCOPE AND METHODOLOGY............................................................ 9

RESULTS OF AUDIT ...................................................................................................... 9

   Inaccurate Survey Data, Potential Bias, and Untimely Decisions
   are Continuing Concerns………………………………………………………………. 9

       Errors in the Wage Data Continue ............................................................................ 9

       Wage Data May be Biased ........................................................................................ 12

       Timeliness of Decisions is Still an Issue .................................................................. 13

  Wage and Hour’s Reengineering Approaches
  Have Not Resolved Past Concerns ................................................................................. 16

       Wage and Hour Concluded that BLS Surveys Were Not Viable Alternatives......... 16

       Reengineering Efforts Have Focused on
       Enhancements to Wage and Hour’s Survey Methodology ....................................... 18

       Broadened Wage Surveys Have Experienced Great Difficulties ............................. 20

       WH Has Contracted With A Consulting Firm to Assist
       in Reengineering ...................................................................................................... 23

RECOMMENDATIONS................................................................................................... 24

APPENDICES
  A. Prior OIG and GAO Findings and Recommendations………………………..…27
  B. Agency Response………………………………………………………………..31


U.S. Department of Labor – Office of Inspector General
                                                ACRONYMS


ASDS             Automated Survey Data System
BLS              Bureau of Labor Statistics
CATI             Computer Assisted Telephone Information
CFR              Code of Federal Regulations
CBA              Collective Bargaining Agreement
CRA              Construction Resources Analysis
D-B              Davis-Bacon Act
DOL              U.S. Department of Labor
ESA              Employment Standards Administration
FY               Fiscal Year
GAO              General Accounting Office
MSA              Metropolitan Statistical Area
NCS              National Compensation Survey
OES              Occupational Employment Statistics
OIG              Office of the Inspector General
OMB              Office of Management and Budget
PART             Program Assessment Ratings Tool of OMB
SCA              McNamara-O’Hara Service Contract Act
UI               Unemployment Insurance
U.S.             United States
U.S.C.           United States Code
WDGS             Wage Determination Generation System
WH               Wage and Hour Division




U.S. Department of Labor – Office of Inspector General     i
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



                                  EXECUTIVE SUMMARY
In 1995, the discovery of fraudulent data in certain prevailing wage surveys conducted under
the provisions of the Davis-Bacon (D-B) Act, triggered members of Congress to request that
the Office of Inspector General (OIG) and the General Accounting Office (GAO) review the
accuracy of data used in prevailing wage determinations and the adequacy of survey
procedures. OIG found data used in the decisions were frequently inaccurate, and both OIG
and GAO identified data inaccuracies and weaknesses in wage determination procedures and
made a variety of recommendations for corrective action.

We have audited progress the U.S. Department of Labor (DOL), Employment Standards
Administration (ESA), Wage and Hour Division (WH) has made in addressing past OIG and
GAO concerns and recommendations for improving the timeliness and reliability of
prevailing wage determinations. While infusion of $22 million of reengineering funds, since
FY 1997, has resulted in limited improvements in how wage surveys are processed, problems
identified in past audits with the data and WH procedures continue. Wage and fringe benefit
data supplied WH and used in its surveys continue to have inaccuracies and may be biased.
Further, prevailing wage decisions developed from the data are not timely.

Inaccurate Survey Data, Potential Bias, and Untimely Decisions are
Continuing Concerns
We revisited the issues of data inaccuracies, survey bias and delays in issuing wage decisions
that were cited in earlier audits conducted by OIG and GAO, and determined measures WH
has taken to alleviate the problems that were identified. All three issues continue to be major
issues that affect the validity and usefulness of D-B wage surveys.

Errors in the Wage Data Continue. Earlier audits discovered a high frequency of errors in
data WH used to calculate prevailing wage rates. The problem is still evident. A contractor
who completed onsite reviews of documentation supporting a portion of wage reports
voluntarily submitted by employers and third parties found one or more errors existed in 100
percent of the wage reports they reviewed. Error rates were high even after WH’s prolonged
efforts to edit and clarify and complete the data.

Wage Data May be Biased. A past audit observed that the methods used by WH to obtain
survey data allowed bias to be introduced into wage surveys. Statistical sampling of
employers was not done. Only data from employers and third parties who volunteered to
participate in the surveys were considered. Consequently, data that could have influenced
survey results may have been omitted. Also, employers and third parties who may have had
a stake in the outcome of wage decisions were afforded an opportunity to submit erroneous
data that may have influenced the survey results. In following up, we found that WH’s


U.S. Department of Labor – Office of Inspector General                                  1
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



methodology has not changed, and we remain concerned regarding whether the survey
results are representative and unbiased.

Timeliness of Decisions is Still an Issue. A prior audit revealed large gaps in time between
surveys, and exceptionally long times needed to complete and publish surveys. In following
up, we found there are still long periods, both between surveys and the time it takes to
complete them. Over 84 percent of the surveys we reviewed (199 of 236) took more than
1.5 years to complete and 21 percent (49) were in process over 3 years before being
published. Consequently, many of the published wage determinations are old. We noted
WH has only recently begun establishing performance standards for the timely execution
and processing of wage surveys.

WH Reengineering Approaches Have Not Resolved Past Concerns
With the boost of $3.75 million of additional funds provided annually for D-B improvement,
WH took a two-track approach to correcting the problems of wage survey relevancy. One was
to pilot test the use of the Bureau of Labor Statistics (BLS) to conduct D-B surveys in the
context of BLS’ existing survey functions. The other track focused on improving WH’s
existing survey operations.

WH Concluded that BLS Surveys Were Not Viable Alternatives. OIG previously
recommended that WH consider using existing BLS wage surveys to develop its prevailing
wage determinations. After funding pilot projects using BLS, WH concluded that BLS could
not be used for D-B. BLS is a DOL agency that uses statistically valid means of conducting
national wage surveys. WH believed BLS surveys insufficiently covered job benefits,
geographical scope, construction types, occupational breakdowns, or prevailing rates. While
obstacles to using BLS surveys exist, we do not believe they are insurmountable.

Reengineering Efforts Have Focused on Enhancements to WH’s Survey Methodology.
The majority of funding WH received from Congress to reengineer its D-B survey processes
has been spent modifying the survey methodology it has historically used. WH procured
new computer hardware and software for ESA and D-B. Other computer-related
enhancements included use of computerized programs to identify errors at the point of data
entry. A Computer Assisted Telephone Information (CATI) System was to help WH staff
contact survey respondents to clarify data.

Several of the initiatives are still planned, under development or were unsuccessfully
implemented and have been restarted. For example, the CATI system had been planned for
August 2002 but was still not installed and working over a year later.




U.S. Department of Labor – Office of Inspector General                                  2
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



Broadened Wage Surveys Have Experienced Great Difficulties. A past audit found the
existing county-by-county survey procedures required such volumes of survey work that
timely decisions were not possible. OIG recommended WH could enlarge its areas of
coverage without failing its mandate of protecting “local rates of pay.”

In FY 2002, WH began completing several statewide surveys across all construction
categories. However, the new procedure is still coupled with the old survey methodology
and seeks to narrow the wage publications for an area to a unit as small as a county, where
possible. The huge volume of survey data generated by the project that must be processed
has stymied the effort. WH had planned 17 new wage surveys for FY 2003, 15 of which
were to be statewide; however, WH started none during the year because of the data glut,
exacerbated by delays in new systems implementation.

WH Has Contracted With A Consulting Firm to Assist in Reengineering. In September
2003, some 7 years into the reengineering process, WH contracted with a private consulting
firm, McGraw-Hill Corporation, to have the firm assess their status and direction in
improving the D-B program. The firm’s assistance is also being sought to help WH respond
to the Program Assessment Ratings Tool (PART) assessment required by the Office of
Management and Budget (OMB). This endeavor has been funded through modification to an
existing contract WH had with McGraw-Hill. McGraw-Hill was already providing Dodge
Reports that assist WH in identifying prime Federal construction contractors for prevailing
wage surveys.

Recommendation
WH continues to struggle with developing effective means of eliminating errors in data and
ensuring wage decisions are issued in a timely manner. OIG again concludes that the current
wage determination process should be replaced with a statistically valid methodology.
Therefore, we recommend the Assistant Secretary for the Employment Standards
Administration promote changes to the Davis-Bacon Act that allow reliable and objective
sources of data, such as offered by BLS surveys, to be used in prevailing wage
determinations.

Agency Response to the Draft Audit Report

ESA stated it is not convinced that the audit report is supported by data or analysis relevant
to a statutory provision, and the report provided insufficient guidance on appropriate changes
to statutory provisions. Furthermore, ESA stated that while OIG recommended the use of
defendable methodologies in wage surveys, such as using BLS surveys, and acknowledged
obstacles to using the surveys, OIG did not identify those obstacles or provide sufficient
guidance on how ESA could overcome the unspecified obstacles.


U.S. Department of Labor – Office of Inspector General                                  3
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations




ESA acknowledged that it might be useful to reexamine conclusions reached by the prior
administration and again explore with BLS the possibility of using BLS data. Although ESA
does not share OIG’s concerns about the universe versus sample survey approach, ESA is
willing to reevaluate the feasibility of conducting Davis-Bacon surveys using a statistical
sampling methodology. Furthermore, ESA concurs that a change to the methodology should
involve the use of BLS data and should not overlay an entirely new sample survey conducted
by Wage and Hour.

ESA also addressed audit report recommendations pertaining to data inaccuracies, bias, and
timeliness, and is taking steps to address them. The response, in its entirety, is in Appendix
B of this report.

OIG Conclusion

We continue to conclude that the solution to the issues of accuracy, representativeness and
timeliness of wage decisions is to change the fundamental methodology WH uses to
complete its surveys.




U.S. Department of Labor – Office of Inspector General                                   4
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



                   BACKGROUND AND PRINCIPAL CRITERIA

Past Concerns
In 1995, fraudulent data were found in certain surveys completed for WH and used to
establish minimum “prevailing” wage rates contractors working on Federally funded
contracts are required to pay their workers, under provisions of the Davis-Bacon Act (D-B).
The discovery triggered concerns among members of Congress for the integrity of prevailing
wage decisions that were based on the survey data, and requests for the Office of Inspector
General (OIG) and the General Accounting Office (GAO) to audit the accuracy of the data
and the sufficiency of WH’s survey procedures. OIG found data used in the decisions were
frequently inaccurate, and both OIG and GAO identified weaknesses in wage determination
procedures and made a variety of recommendations for corrective action. WH has acted on
many of the recommendations but results have not been sufficient.

The previous audits disclosed significant problems, particularly regarding accuracy and
timeliness of wage data. In response to the problems cited, Congress began a yearly
appropriation of about $3.75 million to WH since FY 1997 for the express purpose of
developing and implementing D-B wage survey/determination system improvements. From
FYs 1997 through 2003, WH had spent over $22 million in additional funds for D-B
improvement.

D-B Provisions
D-B (40 United States Code (U.S.C.) 276) is depression-era legislation, passed in 1931, as a
reaction to the perception that Federally-funded construction workers’ wages in certain
localities were being undercut by lower wages paid to workers imported from outside the
area. Essentially, the prevailing wage determined for each craft became a minimum wage in
that locality for Federal construction. Congress extended prevailing wage provisions to
approximately 60 other Federal laws whose programs assist construction projects through
grants, loans, loan guarantees, insurance, and direct financing. These statutes are known as
“Davis-Bacon Related Acts.”

Federal regulations governing program administration are at 29 Code of Federal Regulation
(CFR) Parts 1, 3, 5, and 7. WH divides construction into four categories and determines craft
persons’ wages separately for each. The construction categories are: commercial building,
residential, highway, and heavy (a catchall term for other construction such as water
treatment and sewage plants, dam building, dredging, etc.)

WH determines local prevailing wages through surveys of information provided by
construction contractors and third parties concerning work in the area of consideration. WH

U.S. Department of Labor – Office of Inspector General                                  5
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



provides the means for construction contractors and third parties to submit wages on Form
WD-10 paid to various craft persons. Since 1964, job benefits have also been included. The
participating entities submit the information voluntarily. WH tries to avoid surveying
Federally funded building and residential construction already subject to D-B, but this cannot
always be done due to lack of sufficient survey data.




U.S. Department of Labor – Office of Inspector General                                  6
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



                  OBJECTIVES, SCOPE AND METHODOLOGY

The primary objective of our audit was to follow up on key concerns and recommendations
contained in prior OIG and GAO audit reports. The previous reports on which our followup
was based are:

    •   “Davis-Bacon Act: Process Changes Could Raise Confidence that Wage Rates Are
        Based on Accurate Data,” issued by GAO on May 31, 1996, report number
        GAO/HEHS-96-130.

    • “Inaccurate Data Were Frequently Used in Wage Determinations Made Under the
        Davis-Bacon Act,” issued by OIG on March 10, 1997, report number 04-97-013-04-
        420.

    • “Davis-Bacon Act: Labor Now Verifies Wage Data, but Verification Process Needs
        Improvement,” issued by GAO in January 1999, report number GAO/HEHS-99-21.

    •   “Davis-Bacon Act: Labor’s Actions Have Potential to Improve Wage
        Determinations,” issued by GAO in May 1999, report number GAO/HEHS-99-97.

Key findings and recommendations included in each of these documents are identified in the
Appendix of this report.

We reviewed wage surveys issued from October 1, 1997 through September 30, 2003. We
extended our procedures to include any new information obtained until the end of fieldwork
in December 2003. WH signed a contract with McGraw-Hill Corporation for D-B consulting
assistance in early September 2003. Consequently, we reviewed this contract and discussed
the scope of the contract with McGraw-Hill.

We interviewed key WH and other ESA staff, as necessary to satisfy our audit objectives.
We also interviewed staff in the Atlanta Regional Office of WH. We followed up on each of
the most significant findings and recommendations made in the reports listed above. We also
compiled information provided by WH concerning expenditures for D-B improvement made
from FY 1997, when they were initially provided to ESA, through FY 2003. We have not
audited the expenditure data presented in this report and do not express an opinion
concerning their accuracy, completeness or the fairness with which they are presented.

In order to assess if the accuracy of wage survey data had improved, we obtained reports of
data verification reviews done by the public accounting firm who contracted with WH to do
onsite payroll reviews of wage and fringe benefit data submitted to WH (Form WD-10s) for


U.S. Department of Labor – Office of Inspector General                                  7
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



use in prevailing wage determinations. We selected the accounting firm’s verification
reports that spanned most of the time period the procedure was in effect.

Additionally, we obtained wage survey data from the WH D-B internet website in order to
determine what geographical areas were planned for survey in FY 2003, had been surveyed,
for what time periods surveyed, and the elapsed time between end of survey periods and
actual dates of prevailing wage publications.

We conducted our audit at the national office of ESA, located at the Frances Perkins Labor
Building in Washington, D.C. Our audit was conducted in accordance with Government
Auditing Standards for performance audits. Fieldwork began in July 2003 and continued into
December 2003.




U.S. Department of Labor – Office of Inspector General                                  8
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



                                      RESULTS OF AUDIT

Inaccurate Survey Data, Potential Bias, and Untimely Decisions are
Continuing Concerns
We revisited the issues of data accuracy, potential bias, and untimely decisions that were
cited in earlier audits conducted by OIG and GAO and determined actions WH had taken to
address these problems. We believe that all three of these issues continue to be major
concerns affecting the validity and usefulness of D-B wage surveys.

Errors in the Wage Data Continue. WH has implemented independent verification
procedures to address problems with errors in data supplied by contractors and third parties
(WD-10 Forms) that are used in its wage determination calculations. However, neither
independent verification procedures nor other of WH efforts to reengineer its activities have
resolved systemic problems with WH’s survey methodology.

OIG’s March 1997 audit report on D-B disclosed that wage and benefits survey data were
frequently inaccurate. The materiality of the errors could not be fully determined, but errors
were frequent and resulted in significant differences in some of the individual wage
determinations included in our review. Errors identified in our audit resulted in inaccuracies
in published wage determinations that ranged from overstatements for some crafts of $1.08
per hour to understatements of $1.29 per hour. Of greatest concern was that OIG found
significant inaccuracies in 65 percent of the comparisons of the WD-10 to actual payroll data
examined while on site at the employer location. OIG also found the wage determinations
may have been biased, as prevailing wage rates were computed from only data voluntarily
reported by participating employers or third parties.

Errors resulted from a variety of causes including contractors’ confusion over what was
requested in WH’s survey instrument (WD-10 Forms), carelessness and use of estimates and
approximations. Both OIG and GAO recommended WH better scrutinize data provided by
employers and third parties. OIG recommended some level of onsite inspection of the
information submitted, as an interim step, until a better methodology for conducting surveys
could be developed.

Since receiving increased annual appropriations for D-B improvements, beginning in FY
1997, WH has used a public accounting firm to provide independent data verification through
payroll reviews of samples of construction contractor and third party submissions. Initially,
WH had the firm complete reviews of randomly selected WD-10s, and expanded verification
to all WD-10s submitted by the participating contractor. However, the methodology was
time-consuming, costly, and contributed to delays in getting wage decisions issued. In
addition, many high-impact WD-10s were being omitted from the verification procedure.


U.S. Department of Labor – Office of Inspector General                                  9
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations




In response to a 1999 GAO report, the procedure was refined. Random selection of
contractors was discontinued in favor of judgmental selection. WH obtained the assistance
of the Construction Resources Analysis (CRA) of the University of Tennessee in developing
a model for selecting contractors for review.1 Selection is based upon the WD-10s that are
deemed to have the greatest effect on the results of surveys. Actual pay and benefits are
compared to the WD-10s submitted by contractors and third parties. WH believes the
revised selection procedure has improved the accuracy of wage determinations and has
reduced the time and expense of verification.

WH has made the firm’s independent verification a permanent fixture in the survey process.
Independent verification procedures are identifying errors in the data, as WH intended.
However, it is not apparent that the procedure has allowed WH to make significant progress
in obtaining and publishing more accurate wage information. We reviewed 20 verification
reports done by the public accounting firm under contract with WH to conduct data
verification. We studied 10 reports with survey periods that ended before October 1, 1998
(before reengineering funds could have had an impact on accuracy), and 10 reports with later
survey periods ending after September 30, 1998 (after which reengineering funds should
have had an impact on the accuracy of data). As shown in Figure 1, error rates were higher
in the later surveys.

                                                                                             Figure 1

            Construction Contractors and WD-10s With Reporting Errors
                  In 20 Old and New Verification Reports Sampled
                               Contractors                                  WD-10s
Survey                      Number                                      Number
Period                             With                                        With
                     Reviewed                        Percent.     Reviewed                     Percent.
                                  Errors                                     Errors
Before 10/1/98          71          71                   100%       421        406               96%
After 9/30/98           52          52                   100%       261        257               98%


The accounting firm cited similar errors in both periods above, with percentages of WD-10s
with errors actually increasing in the latter period. The errors were numerous, even in the
face of revised WD-10s, WD-10 instructions, and online WD-10s. Further, the errors
occurred even after time-consuming efforts of WH analysts to clean up the data.

Some broad areas of reporting mistakes were as follows:

1
 CRA, has since been renamed the Construction Industry Research and Policy Center and also conducts some
wage surveys under contract with WH.

U.S. Department of Labor – Office of Inspector General                                          10
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations




    •   Peak Week Errors: Reporting entities frequently reported on incorrect peak weeks.
        The peak week is defined as the week in which the most persons were used in a
        particular craft during the survey period. Naturally the peak week could differ for
        each craft reviewed. However, some entities reported the same peak week for every
        craft. Others chose peak weeks in which a craft was insufficiently represented.
        Incorrect peak weeks often resulted in reporting of wage and benefit errors.
        According to a spokesperson, WH has tried methods other than peak weeks but
        received negative feedback from contractors. (According to the public accounting
        firm, WH has since instructed them to no longer verify that the peak week was
        correctly determined.)

    •   Craft Person Miscounts: Another frequent reporting error was in the number of
        persons representing a craft. Entities often reported the number of persons in various
        craft too high and too low. Miscounts could have a significant effect on WH’s
        weighted average calculations and on determining if a certain wage level was in a
        majority for that craft.

    •   Wage Rate Misreporting: Some entities reported one wage rate for a craft, when two
        or more wage rates existed for the same craft. Some entities even reported one wage
        rate for the entire project workforce. Occasionally, entities reported only the highest
        journeyman wage rate for a craft. Other entities reported only union scale wages,
        rather than the actual wages paid. Wage estimates were also reported instead of
        actual amounts.

    •   Job Classifications Incorrectly Reported: Even though WH provided instructions to
        exclude apprentices and other trainees, entities sometimes reported their wages
        anyway. Nonworking foremen’s wages were also included in violation of WH’s
        guidelines. Conversely, working foremen’s wages were sometimes excluded
        improperly. Skilled laborers were reported as unskilled; and unskilled laborers were
        reported as skilled. Some persons who only delivered building materials were
        included in the surveys. Other workers were included, although their work was
        performed offsite, thus not meeting WH’s guidelines for inclusion.

    •   Job Benefits Rife with Errors: Job benefits have been cited as a reason WH has
        rejected the Bureau of Labor Statistics’ (BLS) Occupational Employment Statistics
        (OES) surveys as a means of replacing its existing survey methodology. Entities had
        difficulty in converting the value of job benefits to hourly rates. Some job benefits
        were merged with the wage rates reported. Certain types of benefits were
        overlooked, or benefits were left off the report altogether. Job benefits reported by



U.S. Department of Labor – Office of Inspector General                                  11
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



        the unions sometimes did not match the benefits actually paid by the contractors. As
        with wages, benefits were often estimated.

    •   Projects, Union Agreements, Subcontractor Misreporting: Wages and benefits were
        reported on incorrect construction projects, more than one project, or reported outside
        the proper survey time period. Reports were submitted on incorrect union
        agreements. Project dollar amounts were frequently wrong. Some projects were
        misclassified as to the category of construction used by WH (building, residential,
        highway, or heavy). Prime contractors reported on the wages and benefits of
        subcontractors, whereas WH requested each subcontractor to report its own survey
        information.

    •   Reason for Incorrect Survey Information Often Unknown: Employer documentation
        sought by the firm in verification of wages and benefits was often missing or
        unavailable. Sometimes key personnel who were responsible for the WD-10s had
        quit, were retired, or otherwise could not be contacted. Some records had not been
        kept. Often, neither the public accountants nor the firm could explain why errors
        were reported on the WD-10.

        While it was not within our scope to determine the impact of errors, our 1997 report
        showed significant incidences of error. The impact on wage decisions could not be
        readily determined since the public accountants only reviewed a sample of
        contractors in surveys, and OIG examined only a small sample of verification reports.
        The apparently high error rates for information reviewed before and after
        reengineering funds were available can be explained by the nature of the information
        that is being collected and WH’s survey methodology. Each wage survey is distinct,
        often with a unique array of construction projects and contractors. Consequently,
        correcting the accuracy of data in one survey, may not lead to improved accuracy in
        others.

Wage Data May be Biased. The refinements WH has made are primarily enhancements to
the old survey methodology that caused us concern in our 1997 report. The verification
procedure results in the correction of errors, but only for the surveys reviewed.

Further, verification of the data does not address a long-standing OIG worry that WH’s
survey methodology may introduce bias into the resulting wage decisions. WH continues to
rely only on information volunteered by employers and third parties, some of whom could
have an interest in influencing the outcome of WH’s prevailing wage determinations. This
was the apparent motivation for the fraud that was discovered in the 1995 incident,
previously discussed.



U.S. Department of Labor – Office of Inspector General                                  12
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



The data can also be skewed because only those employers who have adequate personnel or
accounting staff may choose to complete the WD-10s. Other employers may not participate
because they choose to avoid any involvement with the Government. In addition, higher
participation of either union-affiliated or open shop contractors could bias data in favor of
their scale of wages and benefits.

Timeliness of Decisions is Still an Issue. General survey wage rates published by WH often
required extensive time before publication, rendering the validity of “prevailing” D-B wages
rates questionable. In our 1997 report, we indicated the time gap between a craft’s peak
week and WH’s publication date for that craft may have been too long for the data to be
reliable. The gap was sometimes 3 years. In contrast, if collective bargaining agreements
(CBAs) were used due to union wages prevailing in an area, the CBAs were usually updated
in a timely manner. This resulted in published wage data in union-dominated areas being up-
to-date, whereas published wage data in areas covered by general wage surveys were not.

Little has changed in survey timeliness since our 1997 report. CBAs continue frequent
updates, whereas the time that lapses between wage surveys in a given local area are often
much longer. Some survey results were still in force over long periods, one as much as 7
years, because they had not been updated by new surveys. This chasm between surveys, in
addition to the frequently extended time to publish survey results, can make long waits for
relevant wage publications.

To measure the time required to conduct, review, and publish a survey, we analyzed data
taken from the D-B website. We reviewed 236 surveys in WH’s database, for which the
survey period’s ending date was between December 31, 1994 and March 31, 2002. Of the
236 surveys, 37 surveys were in the “data completion” phase and 199 had been published.
Almost without exception, the time that lapsed between the ending date of the period being
surveyed and conclusion of WH’s data collection effort (referred to as the “data cutoff” date)
was reasonable. This period averaged only about 6 months. In only three incidences, did
this stage require more than 1 year.

However, the amount of time required from the date data was cutoff until publication of a
decision was substantial. We determined that no surveys were published within 6 months of
the survey period ending date. Nine surveys were issued within 12 months, and 28 more
surveys were published within 18 months. However, 199 surveys (84 percent) extended
beyond the 1.5-year mark with a range from 18 to 81 months (6.7 years). The 6.7-year
survey is still unpublished; one published survey required 66 months (5.4 years); and 10
surveys had gone more than 48 months (4 years), as of September 30, 2003. Time that had
lapsed from the end of the survey period to publication date, or as of September 30, 2003 (if
the survey had not yet been published), averaged 2.3 years.



U.S. Department of Labor – Office of Inspector General                                  13
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



Figure 2 illustrates time lapses for the surveys we reviewed.

                                                                                                      Figure 2


                                       *Time Required to Publish Surveys

                         49+ Mo.                    10

                          48 Mo.                     11

                          42 Mo.                                       29
                Within




                          36 Mo.                                                          46

                          30 Mo.                                                                50

                          24 Mo.                                                                     53

                          18 Mo.                                     28

                          12 Mo.                9

                                   0           10          20         30          40           50         60


                                       No. of Surveys Issued



                                   * Includes 37 surveys still not issued as of 9/30/03




During the “data completion” stage following survey data cutoff, wage specialists clarify,
edit, and generally correct the data submitted, enter the data into the computerized wage
survey system, and have the data verified by the firm. The regional analysts make a final
review and analysis after verification before transmitting the survey data to WH’s national
office. These steps are time-consuming because of the volume of data that must be processed
and the amount of clarifications and corrections necessary. The firm found many data errors
even after the painstaking reviews and corrections done by the regional analysts.

We reviewed five surveys with timeliness issues to determine in more detail what caused the
delays at various stages of the process.

    •   No reason was offered regarding why a Vermont statewide building survey required
        41 months (3.4 years) to publish, other than that the verification contractor did not
        release the survey for nearly 2.5 years.



U.S. Department of Labor – Office of Inspector General                                                     14
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



    •   A 33-county Indiana survey took 40 months (3.3 years). The contractor doing
        verification had this survey for review for about 10 months. According to a WH
        official, the contractor had many surveys loaded upon them at once. In addition, the
        random sample selection methodology they were required to apply, at the time, may
        have extended the time necessary to complete verification.

    •   A survey of five counties in New York required 38 months (3.1 years) to publish
        because the WH analyst had nine other surveys to enter into the computerized system
        at the same time. According to WH, the accounting firm had this survey for review
        for almost 15 months.

    •   A 19-county survey in Kentucky took 49 months (4 years) to publish, from date the
        survey period ended, because the WH analyst was said to have been inexperienced,
        and the survey was pushed aside in favor of another priority.

    •   No explanation was provided for a statewide Idaho survey that has been in process for
        2.75 years and, as of September 30, 2003, had still not been published.

The average time WH took to collect data and to review, edit and publish decisions on the
236 surveys we reviewed is presented in Figure 3. This graphic illustrates the timeliness
problems occur primarily in reviewing the data following the data cutoff date. The ratio of
time required to review and prepare data to the time used in data collection was over 5 to 1.

                                                                                        Figure 3

                        Percent of Total Time Devoted to Data Collection versus
                     Data Correction and Analysis for Wage Surveys as of 9/30/2003




                            0%       20%       40%        60%       80%      100%

                                    Data Collection   Data Correction/Analysis




As previously mentioned, the chart includes the 37 cases that had not been published as of
September 30, 2003. They are shown to provide a complete picture of the survey database.
These unpublished cases have already consumed more than 1 year of review and analysis



U.S. Department of Labor – Office of Inspector General                                   15
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



time. Consequently, the time lapses we have calculated provide conservative measures of the
time lapses.

Although not a past OIG audit concern, we noted that WH had not established performance
measures for timely execution and processing of wage surveys. Timeliness standards are
now under consideration, mainly in response to preparing for the OMB Program Assessment
Ratings Tool (PART). The performance review exercise required by OMB caused WH to
direct attention to the idea of timeliness standards. WH proposed timeliness standards
measured in weeks for seven of nine stages of a survey.

WH’s suggested standards were as follows:

        Activity                                                    Standard in Weeks

1.      Dodge reports ordered by regions                                     1
2.      Survey notification letters mailed to all parties                    2
3.      Data collection by Regions                                          24
4.      Review clarification by regions                                      *
5.      Onsite verification of data by public accountants                    *
6.      Review of verification report by regions                             4
7.      Proposed rates sent to national office by regions                    4
8.      Review of survey and publication by National Office                  8
9.      Updates made to wage determinations by National Office               4

Our review indicates that much of the timeliness problems lie in activities 4 and 5 above.
However, WH was not prepared to provide suggested weeks for the two activities. Standards
for the activities noted with an asterisk would depend on the size of the survey, according to
a WH spokesperson. The activities above total 47 weeks, exclusive of the items for which no
standard has been assigned.

WH’s Reengineering Approaches Have Not Resolved Past Concerns
With the boost of $3.75 million of additional funds provided annually for D-B improvement,
WH took a two-track approach to correcting the problems of wage survey relevancy. One was
to pilot test the use of BLS to conduct D-B surveys in the context of BLS’ existing survey
functions. The other track focused on improving WH’s existing survey operations.

WH Concluded that BLS Surveys Were Not Viable Alternatives. In order to counteract
problems with the accuracy, timeliness and validity of wage surveys, our 1997 report
recommended that WH consider completing onsite payroll reviews of wage data on
employers who had been statistically selected for participation. If this was not feasible, OIG


U.S. Department of Labor – Office of Inspector General                                  16
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



recommended WH contract with BLS, a DOL agency that uses statistical means to obtain
wage information from employers. We believed the use of BLS surveys would also provide
a statistically valid means of establishing wage rates and help WH avoid the bias inherent in
its survey methodology.

Although it contracted for verification procedures, WH did not pursue its own onsite payroll
review as a survey methodology. WH believed problems with timeliness would be
exacerbated and the expense of onsite reviews prohibitive. WH did test the use of BLS as a
fellow DOL contracting agency to conduct the surveys. BLS conducts two major surveys
which include in their scope the wages and/or job benefits of construction workers: the OES
survey and the National Compensation Survey (NCS).

BLS already provides WH the statistical data for wage determinations under the
Service Contract Act of 1965 (SCA). SCA is similar to D-B, but applies to service employees
in jobs with contracts funded by the Federal Government, rather than construction workers.
WH must determine what the local prevailing wages are for the occupations needed in each
contract and enforce compliance with the same.

After funding several pilot projects using BLS during fiscal years 1997 through 2000, WH
concluded that BLS could not be used for D-B. Among the reasons cited were absence of job
benefit information in certain of BLS’ surveys, differences in geographic areas covered by
the BLS surveys and those required by WH, differences in how BLS and WH calculate
“wages” and concern that some crafts were not covered in BLS surveys. The OES separates
industry groups, including construction; but the four construction categories utilized by WH
are not clearly defined; and OES does not cover job benefits. The NCS includes job benefits,
but pilot projects showed that NCS did not have sufficient geographical coverage for D-B.
Most importantly may be that BLS surveys by Metropolitan Statistical Areas (MSAs) and
nonMSAs, whereas the Davis-Bacon Act calls for wage determinations at the local, civil
subdivision level, such as cities, counties, etc., within a state.

We evaluated the objections WH presented above concerning BLS’ surveys applied to D-B.
Since OES and NCS together cover both construction jobs and benefits, the two could meet
D-B requirements if NCS expanded both its geographical coverage and the extent of
construction crafts surveyed, a task that could be done with a shift in funds from WH to BLS.
The fact that BLS surveys result in wage averages rather than wage majorities should be of
little concern. WH already uses a “weighted average” in the absence of a clear wage
majority for a craft.

Regarding classification of construction categories, a compromise could be reached between
WH and BLS, since BLS already separates industry groups. We believe that comparison of
construction projects “of a character similar” could be met with relatively minor adjustments


U.S. Department of Labor – Office of Inspector General                                  17
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



to BLS current classifications. WH has acknowledged that clear separation of their four
construction categories cannot always be made.

To use BLS to survey D-B construction, a D-B law change would be necessary regarding the
definition of a local area. D-B’s definition of a local civil subdivision would need to be
changed to accommodate BLS’ focus on surveys of MSAs and nonMSAs. D-B was enacted
during a time when the family automobile was more of a political campaign promise than a
reality. Persons often commute large distances to work today with little regard to small
community or even to state boundaries. MSAs are defined by these commuting patterns.
BLS’ survey results of these larger areas should be sufficient for D-B in these modern times.

Reengineering Efforts Have Focused on Enhancements to WH’s Survey Methodology.
With the exception of funds provided to BLS for pilot projects, the various uses WH has
made of $22 million in D-B improvement funds received since FY 1997 have been for
enhancements to the old survey methodology. The approaches taken by WH included
independent data verification, contracting out certain labor-intensive activities,
computerizing more functions, and upgrading computer technologies. General areas on
which improvement funds were used are as follows:

    •   acquiring new computer hardware and software for the benefit of D-B and,
        concurrently, for other WH/ESA programs and operations;

    •   offering electronic access and submission of the wage survey forms by construction
        companies and third parties;

    •   contracting with the Bureau of Census to leverage its expertise and capacity in
        automating the printing and mailing of paper-based survey forms. The automation
        was intended to reduce duplicate mailings and burden to survey respondents by pre-
        populating survey forms with any existing wage data;

    •   attempting to scan WD-10 hardcopy data into the computerized wage determination
        system. Initial attempts of a contractor failed to deliver this timely; however WH
        currently plans to use the U.S. Census for this activity as well;

    •   employing computerized applications that intend to improve the verification and
        analysis of information returned on the wage surveys;

    •   using a CATI system to help WH staff contact survey respondents to clarify data
        returned on the survey form;




U.S. Department of Labor – Office of Inspector General                                  18
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



    •    redesigning the wage determination database to centralize survey data on a dedicated
         server; and

    •    initiating a D-B wage determination web site that provides citizens, businesses, and
         other governments access to completed, ongoing, and planned wage surveys and
         actual D-B wage determinations. The site also has a frequently asked questions
         section, plus instructions and assistance to complete the survey form.

A summary of expenditures for D-B reengineering efforts, by cost category and year of
appropriation, at September 30, 2003, was obtained from WH and is shown in Figure 4. WH
intends to increase the participation of construction companies and third parties in the survey
process, but believes these increases may require additional resources in order to respond
adequately to the increased data volume.

GAO determined that WH was redesigning the WD-10, the form used by contractors and
third parties to supply wage and benefits information for each construction craft utilized.2
OIG had disclosed in its 1997 report that contractors were often confused and misunderstood
how to complete the WD-10.

                        Categories of Davis-Bacon Reengineering Expenditures
                                       By Year of Appropriation*
                                        At September 30, 2003
   Category      FY 1997      FY 1998       FY 1999      FY 2000      FY 2001      FY 2002      FY 2003          TOTAL
Equipment       $2,187,467     $68,613       $49,625       $33,569     $485,460      $56,370                    $2,881,104
Print/Mail                     $43,777       $30,405      $173,710                  $486,184                      $734,076
Imaging                                                               $364,799       $21,743                      $386,542
Verification      $512,389    $500,000     $639,300      $698,635     $521,782                                  $2,872,106
System Mgt.       $117,513    $316,500     $232,550      $434,272       $78,708    $152,478     $221,082        $1,553,103
Reengineering     $620,595   $1,022,319   $1,039,000     $996,878    $1,823,194   $1,396,082   $1,013,563       $7,911,631
Maintenance                                              $158,300     $145,110     $192,495     $146,936          $642,841
Shared Cost                                              $233,620     $297,043     $383,169     $296,634        $1,210,466
BLS Pilots        $313,950   $1,628,700   $1,776,000     $194,000                                               $3,912,650
Travel                          $15,000                                              $34,257                       $49,257
    TOTAL       $3,751,974   $3,594,909   $3,766,880    $2,922,984   $3,716,096   $2,722,778   $1,678,215      $22,153,776
                                                                                                      Figure 4
 *Each column shows funds ultimately spent out of that fiscal year’s appropriation. Some of the actual
expenditures may have occurred in the year or two following the appropriated year. Therefore, FY’02 and
FY’03 appropriations are still in process of being spent. For example, data verification was still utilizing
FY’01 appropriated funds during FY’02 and FY’03. Source: Unaudited data provided by WH

We determined that WH had redesigned the WD-10 in an attempt to make it less confusing to
users. Instructions for completing the form were enhanced. Some users had embraced the

2
 Davis-Bacon Act: Labor’s Actions Have Potential to Improve Wage Determinations (GAO/HEHS-99-97),
May 1999

U.S. Department of Labor – Office of Inspector General                                                 19
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



online WD-10 readily, while others were resistant, mainly due to comfort with old ways and
discomfort with computer and/or Internet technology.

GAO reported that WH had enacted computerized programs to assist wage analysts in
identifying errors at the point of data entry.3 The computer edit checks would detect errors of
obvious inconsistency, omission, and incompatibility with other data entered. The system
would also standardize the way wage analysts reviewed data across WH regions. A WH
representative indicated that the systems were not perfected but do provide help to regional
wage analysts in identifying errors.

A computer assisted telephone system to help WH staff contact survey respondents had been
planned for August 2002. The system was to facilitate data followup and verification, a
process WH believes consumes large amounts of time in the wage survey process. However,
over 1 year later, at the end of September 2003, the system had not yet been started.

WH assured us that the plans for this system were still on the table. This would be a future
innovation in the use of D-B improvement funds. The continuing complexities of installing
and operating new computerized systems had caused WH to fall behind on CATI, as with
many other of its plans.

Broadened Wage Surveys Have Experienced Great Difficulties. One significant
alteration to WH’s previous survey methodology is recent attempts to reduce workload and
improve the timeliness of decisions by broadening the geographic areas covered by its
surveys. Unfortunately, the initiative has created a logjam of data that has delayed issuing
decisions.

As reported in OIG’s March 1997 report on D-B, WH typically conducted wage surveys on
small geographical areas, covered only one construction category, and sought to narrow the
wage publications down to an individual county, if possible. WH stipulates the county as the
primary unit for establishing prevailing wage decisions, based upon language in D-B and
program regulations that indicates the “area” for determination of wage rates is to be the civil
subdivision in which the work is being performed. WH views its primary objective as
protecting local rates of pay.

However, under WH’s existing survey methodology, the huge amount of survey work needed
to cover the Nation in all four construction categories did not allow timely issuance of
decisions. OIG recommended WH could enlarge its areas of coverage and not frustrate its
mandate of protecting “local rates of pay.” For example, if insignificant differences in wage
rates exist, say among rural counties, county-by-county surveys waste resources.


3
    Ibid

U.S. Department of Labor – Office of Inspector General                                  20
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



Beginning mainly in FY 2002, WH had begun some statewide wage surveys in which all four
construction categories were conducted simultaneously in one large survey effort. However,
WH wed the new procedure with the old methodology and still narrowed the wage
publications for an area to a unit as small as a county, if possible. WH had programmed its
computerized wage survey systems to widen the scope of coverage beyond the county unit
until they had at least WH’s required minimum number of contractors and individuals
representing a craft in that particular construction category.

This action, although taken 5 years after our 1997 report, represents a major change in
strategy. Currently, WH has 28 statewide surveys in the “data completion stage,” although
only 13 of these include all four construction categories.

While we believe the concept is viable, the way in which it has been implemented has
resulted in a deluge of data that must be corrected, refined, adjusted, keyed or scanned into
the computerized system, analyzed, and verified. WH’s first attempt in this mode for the
State of Oregon became so cumbersome and time-consuming that WH aborted the survey.
Another early attempt for the State of Colorado finally resulted in publication of decisions.
They were issued over 3 years after the end of the survey period.

WH planned 17 new wage surveys for FY 2003, 15 of which were to be statewide, in all 4
construction categories. In fact, WH started none of the 17 during the fiscal year, due to the
excess of data, continuing changes in computer technology, staff retirements, and training of
new, inexperienced staff.

Further, WH had no open surveys in the data-gathering process. Surveys in data completion
and analysis, whose data cutoff dates all preceded FY 2003, numbered 37. Of the five
published surveys, only Delaware was statewide, all four construction categories.

Figure 5 illustrates the number of surveys planned and actually started in FY 2003 and
Figure 5a shows the number of surveys in open data collection, in editing and review, and
the number published in FY 2003.




U.S. Department of Labor – Office of Inspector General                                  21
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations




                                       Figure 5                                             Figure 5a
                STATUS OF SURVEY STARTS                            SURVEYS OPEN, IN REVIEW,
                      Plan vs Actual                                   AND PUBLISHED
                     Fiscal Year 2003                                  Fiscal Year 2003


                                                             40
           18
           16                                                35

           14                                                30
           12                                                25
           10
                                                             20
            8
                                                             15
            6
            4                                                10

            2                                                 5
            0                                                 0
                         Starts                                      Op       In            Pu
                                                                        en         Re         bl
                                                                                     vie        ish
                   Planned    Actual                                                    w          ed




A WH official acknowledged the agency’s goal of covering the whole nation every 3 years
has proven to be unattainable in the short term. The information above confirms this
statement. The whole survey planning process lost credibility, as a whole year of new survey
starts was postponed, and all existing cases that had not been published lingered over 1 year
in the various stages occurring after data cutoff.

Since the weight of this increased workload fell heavily upon the regional specialists, WH
attempted to relieve the burden by contracting such labor-intensive activities as printing and
mailing of wage survey requests and computer scanning of hard copy survey data received.
These tasks were contracted out to the U.S. Census Bureau. Printing and mailings of survey
requests were already underway, whereas Census was only now being requested to do data
scanning. (An earlier contractor was dropped due to lack of progress in this endeavor.) The
initiation of the automated, online WD-10 also relieved regional specialists from manual data
entry. However, many contractors and third parties continue to use hard copy WD-10s.

While not included as a prior OIG or GAO recommendation, we noted the last manual
published by WH for D-B wage determination process was the “Davis-Bacon Construction
Wage Determinations Manual of Operations,” dated April 1986. WH has undergone many



U.S. Department of Labor – Office of Inspector General                                                  22
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



changes in D-B administration in the 17 years since the manual was last published. WH
indicates work on the update was delayed.

The current manual states that its purpose is to “increase ESA’s efficiency in administering
the Davis-Bacon Act.” The manual also presents its fundamental objective: “ . . . to
prescribe guidelines, standards and techniques which will enhance the program’s ability to
issue timely and accurate prevailing wage determinations.”

WH indicated its target date for publication of the revised manual is now set for calendar
year 2004.

WH Has Contracted With A Consulting Firm to Assist in Reengineering. In September
2003, some 7 years into the reengineering process, WH contracted with McGraw-Hill
Corporation for assistance in assessing WH’s actions and plans to improve D-B and to help
WH meet the requirements of OMB’s PART. The contract for $165,400, signed on
September 3, 2003, was approved as an “incorporation of additional work” for McGraw-Hill,
which already provided the Dodge Reports under contract.

WH was soon to be undergoing OMB’s PART, a periodic assessment of Federal agencies.
WH needed an independent performance assessment as a part of the PART review.
According to the contract, and from statements by a WH official, McGraw-Hill was to
evaluate D-B improvements, determine if WH’s efforts to improve D-B produced more
accurate and timely prevailing wage determinations, and identify potential opportunities for
more improvements.

The contract would extend for 180 days from their “kickoff meeting” and required a draft
report from McGraw-Hill no later than 140 days. A final report was due within 160 days of
the kickoff meeting.




U.S. Department of Labor – Office of Inspector General                                  23
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



                                   RECOMMENDATIONS

Over 70 years after D-B’s enactment, WH still struggles with administering an effective
prevailing wage determination program. WH has not sufficiently resolved findings and
recommendations reported by OIG and GAO. The credibility of wage determinations
remains questionable, because of concerns over data on which they are based. Delays in
publishing wage decisions call their relevance into question.

The independent verification of survey data indicates that many significant errors continue to
be made by both contractors and third parties. Huge spans of time still stretch between wage
surveys for many areas, planned survey starts are delayed, and the survey process often still
takes far too long to complete. Timeliness performance standards for processing surveys are
only in the formative stage after years of administering the program. All these factors raise
serious questions as to how reliable are D-B wage determinations for use in Federally-funded
construction.

The time and expense associated with independent data verification by the firm could be
eliminated if BLS did D-B surveys. Independent verification was recommended by OIG
earlier only as an interim measure until a better methodology was developed to complete D-B
surveys.

We continue to believe the solution to problems with the accuracy, representativeness and
timeliness of wage decision that have plagued WH is to change the fundamental
methodology it uses to complete its surveys. Consequently, we recommend the Assistant
Secretary for the Employment Standards Administration promote changes to the Davis-
Bacon Act that allow reliable and objective sources of data and a defendable methodology,
such as that offered by BLS surveys, to be used in prevailing wage determinations.



EMPLOYMENT STANDARDS ADMINISTRATION’S RESPONSE TO THE DRAFT
AUDIT REPORT

ESA responded that they are not convinced that the report is supported by data or analysis
relevant to a statutory provision. ESA indicated that the report provided insufficient
guidance on appropriate changes to statutory provisions. Furthermore, ESA stated that while
OIG recommended the use of defendable methodologies in wage surveys, such as those done
by BLS, and acknowledged obstacles to using such methodologies, OIG did not identify
those obstacles nor provide sufficient guidance addressing how ESA could overcome the
unspecified obstacles. ESA reiterated that using BLS survey data is not feasible in meeting
statutory requirements in part due to the surveys not including fringe benefits. ESA cited the


U.S. Department of Labor – Office of Inspector General                                  24
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



cost of obtaining fringe benefits data and concerns with the completeness of the wage when
classified by occupation and type of construction.

ESA explained that these obstacles led to their decision to improve the current wage survey
process rather than utilize the BLS surveys. Nonetheless, ESA acknowledged that it might
be useful to reexamine conclusions reached by the prior administration and again explore
with BLS the possibility of using BLS data. Although ESA does not share OIG’s concerns
about the universe versus sample survey approach, ESA is willing to reevaluate the
feasibility of conducting Davis-Bacon surveys using a statistical sampling methodology.
Furthermore, ESA concurs that a change to the sampling methodology should involve the use
of BLS data and should not overlay an entirely new sample survey conducted by Wage and
Hour.

ESA also addressed the report recommendations related to our continuing concerns on data
inaccuracies, bias, and timeliness.

Data Inaccuracies. ESA addressed the continuation of errors in wage data. While ESA
pointed out that many of the wage errors identified in our earlier audit were within the
margin of error, they shared our concern regarding the accuracy of data and remained
committed to making the data used in Davis-Bacon determinations as accurate as possible.
ESA explained that its current on-site verification efforts now target those data submissions
having the greatest impact upon wage determination results.

Bias. ESA asserted that continued efforts are being made to involve all parties and
encourage participation by all segments of the construction industry. ESA noted that
following years of extensive on-site verification, no evidence of fraud or intentional
misreporting was found.

Timeliness. ESA stated that timeliness continues to be a critical concern with WH and that
progress is being made to address the issue. ESA contended that a full evaluation of this
issue was premature since all of the infrastructure improvements had not been fully
implemented. ESA further explained that with many large infrastructure projects it is
difficult to measure incremental improvements because the entire system is integrated and
the full benefit of individual improvements cannot be fully realized until all aspects of the
project are completed. According to ESA, WH will be establishing baselines and developing
measures of timeliness in an effort to ensure attention to the issue.

ESA concluded that they fully believe that the system changes being pursued for the D-B
wage survey program have the potential to improve wage determinations.




U.S. Department of Labor – Office of Inspector General                                   25
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations



  OIG’s CONCLUSION ON EMPLOYMENT STANDARDS ADMINISTRATION’S
              RESPONSE TO THE DRAFT AUDIT REPORT

In general, ESA questioned several aspects of the OIG audit report, but is undertaking a
number of positive changes to address many OIG recommendations. We continue to
maintain that the solution to the problems with accuracy, representativeness, and timeliness
of wage decisions is to change the fundamental methodology WH uses to complete its
surveys.

Regarding the “unspecified obstacles” to using BLS surveys, the OIG was referring to the
obstacles addressed in the results of the pilot project submitted by WH. It is not the
responsibility of the OIG to offer detailed recommendations to WH about how and where it
should research sources that may be more applicable/suitable to obtaining accurate wage data
for D-B. It is the responsibility of WH to conduct such research and make a determination
based on its conclusions. Such research may confirm the need for changes to the Davis-
Bacon Act.

ESA indicated the report lacks guidance on appropriate changes to the law. The law
specifies that fringe benefits are to be considered in determining prevailing wages. We
believe this is problematic due to the high error rate associated with fringe benefit data
collected through the current survey process. Further, a statistical approach, such as that
offered by BLS, would improve reliability by controlling for bias that may exist in data
provided by participating contractors and third parties, who might have a personal stake in
the outcome.

OIG continues to recommend that DOL promote changes to the Davis-Bacon Act that would
allow reliable and objective sources of data, such as BLS surveys, in making prevailing wage
determinations. Both the law and regulations at 29 CFR 1.2(b) refer to protecting "local rates
of pay," meaning a "city, town, village or other civil subdivision." However, BLS surveys
are conducted on the basis of Metropolitan Statistical Areas (MSAs), which are not civil
subdivisions. The law could be revised to define the area of coverage as whatever
geographic delineation best reflects the labor market for a particular locale. ESA
acknowledged they routinely use broader areas when sufficient data are not available on a
county-by-county basis.

Notwithstanding additional legislation, WH should explore other methodologies that would
improve the timeliness and accuracy, and mitigate potential bias, that exist with the current
methods of performing wage determinations.




U.S. Department of Labor – Office of Inspector General                                  26
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations

                                                                                        APPENDIX A


               Prior OIG and GAO Findings and Recommendations

Summarized below are four recent reports of Labor’s Office of Inspector General and the
General Accounting Office on the Davis-Bacon prevailing wage determination program. The
findings, concerns and recommendations we believed are the most relevant to the wage
determination process are those we followed up on in this audit.

Davis-Bacon Act: Process Changes Could Raise Confidence That Wage Rates Are
Based on Accurate Data, GAO/HEHS-96-130, May 1996

Findings or Concerns

    •   Labor’s decisions are based only on wage and benefit data voluntarily submitted by
        employers and third parties, such as unions or trade groups, on construction projects.

    •   Although Labor has a process in place to determine prevailing wage rates, GAO
        found that it contains internal control weaknesses that contribute to the lack of
        confidence in the resulting wage determinations. These weaknesses include:

                 Inadequate verification of wage and fringe benefit data,

                 Limited computer capabilities, and an appeals process that may be difficult for
                 interested parties to access, and

                 Lack of awareness of the appeals process may limit its effectiveness.

Recommendations

    •   Request that a sample of participating employers to submit appropriate
        documentation on their data submissions or to conduct a limited number of onsite
        inspection reviews of employer wage data, and

    •   Inform employers, unions, and other interested parties of their rights to request
        summary information on a wage determination and of the agency’s procedures for
        initiating an appeal of a wage determination.




U.S. Department of Labor – Office of Inspector General                                      27
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations

                                                                                        APPENDIX A


Inaccurate Data Were Frequently Used in Wage Determinations Made Under the
Davis-Bacon Act, DOL/OIG Report No. 04-97-013-04-420, March 10, 1997

Findings or Concerns:

    •   Significant errors were identified in 15 percent of the Davis-Bacon wage survey
        forms (WD-10s) submitted. Eighty-four percent of the errors were attributed to
        contractors and third parties; 16 percent were the fault of WH processing.
        Material errors resulted in wage decisions needing revision in five states.

    •   WH’s methods for Davis-Bacon surveys need reevaluation. Concerns included:

        -- Use of only voluntarily submitted wage data from employers and third parties,

        -- Decisions sometimes based on data for a small number of individuals in a craft,

        -- Disparities in the age of data used to establish craft rates. Some crafts are
           periodically updated due to collective bargaining agreements, while nonunion
           rates may not be updated for years.

        -- Small geographic areas covered by surveys, which result in workloads that will
            not allow for sufficient and timely coverage, and which contribute to usage of
            small numbers of individuals on which wage decisions are based.

        -- “Peak week” calculations, which may not provide for representative decisions.

Recommendations

    •   Select contractors for participation using statistical or other independent means.

    •   Obtain necessary data directly from contractors' records through onsite collection,
        thus eliminating the need for third party reporting. If mail surveys are used for
        statistically selected employers, onsite reviews to verify submissions on at least a
        sample basis should be built into the process.

    •   Obtain assistance from the Commissioner of the Department's Bureau of Labor
        Statistics in reviewing procedures used in the Davis-Bacon wage determination
        process and recommending legislative, regulatory or administrative changes as
        needed in the survey methodology.



    •   Verify a sample of contractor-submitted data, as an interim procedure, and initiate
        appropriate enforcement actions against persons making false reports.


U.S. Department of Labor – Office of Inspector General                                         28
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations

                                                                                        APPENDIX A


Davis-Bacon Act: Labor Now Verifies Wage Data, but Verification Process Needs
Improvement, GAO/HEHS-99-21, January 1999

Findings or Concerns

    •   Labor’s telephone verification procedures differ depending on whether the data
        are applied by contractors or third parties.

    •   Labor verifies a different percentage of wage data forms submitted by third
        parties than that for data forms submitted by contractors.

    •   Labor asks for supporting documentation only from contractors and not from third
        parties.

    •   Verification efforts, although needed, will have limited impact on accuracy of
        prevailing wage rate determinations and will increase the time required to issue
        them.

    •   Verification samples, using random sampling, are not large enough to ensure
        impact on accuracy of wage determinations.

    •   Sample selections size for wage data verification will have little to no impact on
        accuracy of wage determinations when using a random sampling.

    •   Onsite verification has added time to the wage determination process, increasing
        the likelihood that data used will be outdated.

Recommendations

    •   Increase the use of telephone verification, while decreasing onsite verification
        audits, and increase efforts to obtain payroll documentation from all selected
        submitters.

    •   Change the procedures used to select wage data for verification to include only
        judgmentally-selected contractors with potentially higher impact on wage
        decisions.

    •   Revise verification procedures to take more appropriate action when
        documentation cannot readily be obtained from a contractor.




U.S. Department of Labor – Office of Inspector General                                         29
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations

                                                                                        APPENDIX A


Davis-Bacon Act: Labor’s Actions Have Potential to Improve Wage
Determinations, GAO/HEHS-99-97, May 1999

Findings or Concerns

    •   Need to achieve more accurate and timely wage determination

    •   Wage determination process must promote greater survey participation, improve
        the accuracy of data submission and increase efficiency of data collection and
        analysis.

    •   WH was redesigning the current wage determination process to conduct statewide
        surveys for all 4 construction types.

    •   The use of alternative databases, such as UI, may not result in sufficient data that
        would adequately represent the current universe.

    •   Using BLS’ OES data as the basis for wage determinations presents WH with a
        number of operational issues about setting wage rates.

Recommendations

The report recounts WH’s reengineering efforts; recommendations were not offered.




U.S. Department of Labor – Office of Inspector General                                         30
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations

                                                                                        APPENDIX B




U.S. Department of Labor – Office of Inspector General                                         31
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations

                                                                                        APPENDIX B




U.S. Department of Labor – Office of Inspector General                                         32
Concerns Persist with the Integrity of Davis-Bacon Act Prevailing Wage Determinations

                                                                                        APPENDIX B




U.S. Department of Labor – Office of Inspector General                                         33
